CERTIFICATE OF COMPLIANCE
No. 19-1031

ERIN CAPRON; JEFFREY PENEDO; CULTURAL CARE,
INC., D/B/A CULTURAL CARE AU PAIR,

Petitioners,
v.

OFFICE OF THE ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS; MAuRA T.
HEALEY, IN HER CAPACITY AS ATTORNEY GENERAL OF
THE COMMONWEALTH OF MASSACHUSETTS,

Respondents.

As required by Supreme Court Rule 33.1(h), I
certify that the Brief in Opposition of respondents
contains 8138 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the
foregoing is true and correct.

Executed on May 18, 2020.

ROBERT E. TOONE

Assistant Attorney General
One Ashburton Place
Boston, MA 02108
robert.toone@mass.gov
(617) 963-2178
